No..
In the Supreme Court of the United States

HUGO PENA
Petitioner,
v.
UNITED STATES OF AMERICA
Respondent.

PROOF OF SERVICE
I, Hugo Pena , do swear or declare that on this date, October 7th. 2020. as required
by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI
on each party to the above proceeding or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
Solicitor General of the United States, Room 5614, Department of Justice, 950
Pennsylvania Ave., N.W., Washington, D. C. 20530—0001.
Respectfully,

Hugo Pena
10241 NW 9th St. Cir. # 109
Miami, Florida 33172
(TEL) 786-368-9545
hpena01@yahoo.com
Petitioner Pros Se

